Case: 20-3381

Document: 9-2

Filed: 09/17/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-3381

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PATRICIA EARNEST; JANET KELLY,

Sep 17, 2020
DEBORAH S. HUNT, Clerk

)
)
)

Plaintiffs-Appellants,

)
)
)
)

v.

JOANN ELLISON, et al.,

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

)
)

Defendants-Appellees.

ORDER
Before: GUY, CLAY, and DONALD, Circuit Judges.
Patricia Earnest and Janet Kelly (collectively, “Plaintiffs”), pro se residents of Arkansas
and Georgia, respectively, appeal the district court’s order denying their construed motion for relief
from judgment under Rule 60(b)(1) and (b)(6) of the Federal Rules of Civil Procedure. This case
has been referred to a panel of this Court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).
The Plaintiffs are children of the late John H. Ellison, Sr. They filed a lawsuit in August
2019, alleging that certain “officers of the court”—namely, Joann Ellison, Judge Lawrence A.
Belskis, Jack G. Gibbs, Jr., and Alphonse P. Cincione—engaged in tortious conduct while their
father’s will was being probated in the Franklin County (Ohio) Court of Common Pleas, Probate
Division.

Approximately four months later—on December 13, 2019—the magistrate judge

ordered the Plaintiffs to show cause within fourteen days why their complaint should not be
dismissed for failure to prosecute based on their continuing failure to timely effect service of
process on any of the Defendants. See Fed. R. Civ. P. 4(m) and 41(b). The magistrate judge also
ordered Earnest to show cause why her claims should not be dismissed for failure to prosecute

Case: 20-3381

Document: 9-2

Filed: 09/17/2020

Page: 2

No. 20-3381
-2based on her failure to provide the court with a current mailing address. The magistrate judge
explicitly cautioned the Plaintiffs “that their failure to show cause may result in dismissal of this
action.”
The Plaintiffs failed to respond to the show-cause order. Accordingly, the magistrate judge
recommended that the district court dismiss the Plaintiffs’ Complaint without prejudice pursuant
to Rules 4(m) and 41(b). On February 3, 2020, over the Plaintiffs’ objections, the district court
adopted the magistrate judge’s report and recommendation and dismissed the Plaintiffs’ complaint
without prejudice. The Plaintiffs subsequently filed a “Motion for Writ of Mandamus to Set Aside
Court Order Dated February 3, 2020 and Judgment,” in which they argued that the district court
mistakenly found that two of the Defendants—Joann Ellison and Alphonse Cincione—were not
served. The district court construed the Plaintiffs’ post-judgment motion as a motion for relief
from judgment under Rule 60(b)(1) and (b)(6) and denied it on March 9, 2020.
The Plaintiffs thereafter filed a notice of appeal from the district court’s February 3, 2020,
judgment and March 9, 2020, order. We determined that the Plaintiffs’ notice of appeal was “late
as it applies to the February 3, 2020, judgment, but timely filed as it applies to the March 9, 2020,
order.” Earnest v. Ellison, No. 20-3381, slip op. at 1 (6th Cir. May 15, 2020) (order) (citing
28 U.S.C. § 2107(a) and Fed. R. App. P. 4(a)(1)(A)). This was because the Plaintiffs’ construed
Rule 60(b) motion did not toll their time to appeal because it was not filed within twenty-eight
days of the district court’s February 3, 2020, judgment. Id. (citing Fed. R. App. P. 4(a)(4) and
Torras Herreria y Construcciones, S.A. v. M/V Timur Star, 803 F.2d 215, 216 (6th Cir. 1986)).
We therefore dismissed the Plaintiffs’ appeal as it pertained to the February 3, 2020, judgment and
instructed the Plaintiffs that “[o]nly issues regarding the March 9, 2020, order denying the
construed Rule 60(b) motion may be argued on appeal.” Id., slip op. at 2.
Prior to our order of May 15th, the Plaintiffs filed an unsolicited appellate brief in which
they argued that the district court improperly dismissed their Complaint. As previously noted,
those arguments are not properly before this Court. See id., slip op. at 1-2. The Plaintiffs raise no
argument in their brief relating to the district court’s order dismissing their Rule 60(b) motion.

Case: 20-3381

Document: 9-2

Filed: 09/17/2020

Page: 3

No. 20-3381
-3Ordinarily, a party’s failure to raise an argument in an appellate brief forfeits the argument on
appeal. See Geboy v. Brigano, 489 F.3d 752, 767 (6th Cir. 2007). But since the Plaintiffs filed
their brief before our jurisdiction order, we elect to review the district court’s Rule 60(b) order.
The district court construed the Plaintiffs’ post-judgment motion as being filed pursuant to
Rule 60(b)(1) and (b)(6), and the Plaintiffs do not dispute that interpretation on appeal. We review
a district court’s order denying a Rule 60(b) motion for abuse of discretion. See Yeschick v. Mineta,
675 F.3d 622, 628 (6th Cir. 2012). Under Rule 60(b)(1), a court may grant relief from judgment
for “mistake, inadvertence, surprise, or excusable neglect.” On the other hand, a court may grant
relief from judgment under Rule 60(b)(6) for “any other reason that justifies relief.” Rule 60(b)(6)
applies only in “unusual and extreme situations where principles of equity mandate relief.” Olle
v. Henry & Wright Corp., 910 F.2d 357, 365 (6th Cir. 1990).
On appeal, the Plaintiffs reiterate their argument that the district court mistakenly found
that none of the Defendants were properly served. But as the district court correctly noted, the
docket reflects only that summonses were issued to the Defendants. There is no indication in the
record that service was ever effectuated, and the Plaintiffs did not provide the district court with
evidence to the contrary. The Plaintiffs therefore failed to demonstrate that they were entitled to
relief from the district court’s judgment based on either mistake or an “unusual and extreme
situation[] where principles of equity mandate relief.” Olle, 910 F.2d at 365. The district court
did not abuse its discretion when it dismissed the Plaintiffs’ construed Rule 60(b) motion.
Accordingly, we AFFIRM the district court’s order.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

App. 15
No. 20-3381

I
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PATRICIA EARNEST; JANET KELLY,
Plaintiffs-Appellants,
v.

JOANN ELLISON, et a!..
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)

FILED

May 15, 2020?
DEBORAH S. HUNT, Clerk

ORDER

Before: GIBBONS, COOK, and READLER, Circuit Judges.
This court must examine the basis of its jurisdiction, on its own motion if necessary. Alston
v. Advanced Brands & Importing Co., 494 F.3d 562,564 (6th Cir. 2007). Generally, in a civil case
where the United States, a United States agency, or a United States officer or employee is not a
party, a notice of appeal must be filed within thirty days after the judgment or order appealed from
is entered. See 28 U.S.C. § 2107(a); Fed. R. App. P. 4(a)(1)(A).
In this civil rights action, the district court entered its final judgment on February 3, 2020.
On March 5, 2020, plaintiffs Patricia Earnest and Janet Kelly filed a “Motion for Writ of
'Mandamus to Set Aside Court Order Dated February 3, 2020 and Judgment.” That filing,
construed as a Federal Rule of Civil Procedure 60(b) motion for relief from judgment, was denied
by order entered on March 9,2020. Because the motion was not filed within twenty-eight days of
the February 3, 2020, judgment, it did not toll the time to appeal. See Fed. R. App. P. 4(a)(4);
Torras Herreriay Construcciones, S.A. v. M/V Timur Star, 803 F.2d 215,216 (6th Cir. 1986). The
notice of appeal filed in the district court on March 30, 2020, is late as it applies to the February
3, 2020, judgment, but timely filed as it applies to the March 9, 2020, order. See 28 U.S.C.
§ 2107(a); Fed. R. App. P. 4(a)(1)(A).

e \

App.16
No. 20-3381
-2-

" Compliance with the statutory requirement in § 2107(a) that t^e notice of appeal be filed
within thirty days after the entry of a judgment is a mandatory jurisdictional prerequisite that this
court may neither waive nor extend. Hamer v. NeighborhoodHous. Servs. of Chi t 138 S. Ct. 13,
20 (2017); Bowles v. Russell, 551 U.S. 205,214 (2007).
It is therefore ordered that this appeal is DISMISSED as it applies to the February 3,2020,
judgment. Only issues regarding the March 9, 2020, order denying the construed Rule 60(b)
motion may be argued on appeal.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

¥

!

f

1
V

t

*

H

•v

App. 13
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
PATRICIA EARNEST, et at^
Plaintiffs,
v.

Case No. 2:19-cv-3611

JOANN ELLISON, et al.,
JUDGE SARAH D. MORRISON
Magistrate Judge Chelsey M. Vascura
Defendants.
ORDER
This matter is before the Court for consideration of a Report and Recommendation
(“R&R”) issued by the Magistrate Judge on January 3, 2020. (EOF No. 10). Therein, the
Magistrate Judge recounted her December 13,2019 Older requiring Plaintiffs to show cause why
the case should not be dismissed for failure to effect service under Fed. R. Civ. P. 4(m) and for
feilure to prosecute. (EOF No. 8.) The Order cautioned Plaintiffs that failure to respond could
result in their case being dismissed. Id. Plaintiffs did not respond, so the R&R was issued. The
R&R suggested that the case should be dismissed for failing to prosecute for lack of service and
to provide the Court with an updated mailing address. (ECF No. 10.)
Plaintiffs Patricia Earnest and Janet Kelly filed their “Motion for Relief from Judgment
or Order Motion to Set Aside Court Order Dated October 28, 2019” on January 13, 2020. (ECF
No. 11.) That filing, which the Court shall treat as an objection to the R&R, seemingly argues
that service was effected on Defendants Joann Ellison and Alphonse Cincione such that the
Court should not adopt the R&R but should instead reverse the Magistate Judge’s October 28,

1

APP. 14
2019 Order denying Plaintiffs’ motions for default for lack of service.1 But the docket reflects
only that summons were issued as to those individuals, not that service was perfected upon them.
This ground of objection is therefore OVERRULED and the relief sought is DENIED.
Accordingly, the Court OVERRULES Plaintiff’s Objections to the R&R and DENIES
Plaintiff’s Motion to Set Aside Court Order Dated October 28, 2019. (ECF No. 11.) Thus, the
Court hereby ADOPTS the R&R (ECF No. 10) and DISMISSES Plaintiffs’ Complaint
WITHOUT PREJUDICE.
Plaintiffs are ORDERED to list 19cv-3611 as a related case should they choose to re­
file.
IT IS SO ORDERED.
/s/ Sarah D. Morrison
SARAH D. MORRISON
UNITED STATES DISTRICT JUDGE

i

Judge Belskis is listed as a defendant in the Complaint’s case caption and is mentioned
in the body of the Complaint. Plaintiffs do not address whether he was served, and the docket
does not indicate that a summons was issued as to him. Jack Gibbs is also a named defendant.
Plaintiffs do not address whether he was served, either.
2

Case: 2:19-cv-03611-SDM-CMV Doc #: 10 Filed: 01/03/20 Page: 1 of 4 PAGEID #: 42

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
PATRICIA EARNEST, et al.9
Plaintiffs,
v.

Civil Action 2:19-cv-3611
Judge Sarah D. Morrison
Magistrate Judge Chelsey M. Vascura

JOANN ELLISON, et al9
Defendants.

REPORT AND RECOMMENDATION
On December 13, 2019, the Court ordered Plaintiffs to show cause within fourteen days
why this action should not be dismissed for failure to prosecute based on their failure to timely
effect service over any of the Defendants. (Show Cause Order, ECF No. 8.) Plaintiff Patricia
Earnest was also ordered to show cause why her claims should not be dismissed for failure to
prosecute based on her failure to provide the Court with an updated mailing address. {Id. at 2.)
Plaintiffs were further cautioned that failure to comply with the Show Cause Order may result in
dismissal of their case. {Id.) To date, Plaintiffs have not responded to the show cause order.
Under the circumstances, the undersigned finds dismissal of Plaintiffs’ action appropriate
pursuant to Rules 4(m) and 41(b). The Court’s inherent authority to dismiss a plaintiffs action
with prejudice because of her failure to prosecute is expressly recognized in Rule 41(b), which
provides in pertinent part: “If the plaintiff fails to prosecute or to comply with these rules or a
court order, a defendant may move to dismiss the action or any claim against it. Unless the
dismissal order states otherwise, a dismissal under this subdivision (b). . . operates as an

Case: 2:19-cv-03611-SDM-CMV Doc #: 10 Filed: 01/03/20 Page: 2 of 4 PAGEID #: 43

adjudication on the merits.” Fed. R. Civ. P. 41(b); Link v. Walbash R.R. Co., 370 U.S. 626, 62931 (1962). “This measure is available to the district court as a tool to effect ‘management of its
docket and avoidance of unnecessary burdens on the tax-supported courts [and] opposing
parties.’” Knoll v. AT & T,\16 F.3d 359, 363 (6th Cir. 1999) (internal citations omitted).
The Sixth Circuit directs the district courts to consider the following four factors in
deciding whether to dismiss an action for failure to prosecute under Rule 41(b):
(1) whether the party’s failure is due to willfulness, bad faith, or fault; (2) whether
the adversary was prejudiced by the dismissed party’s conduct; (3) whether the
dismissed party was warned that failure to cooperate could lead to dismissal; and
(4) whether less drastic sanctions were imposed or considered before dismissal was
ordered.
Schafer v. City ofDefiance Police Dep’t, 529 F.3d 731, 737 (6th Cir. 2008) (citing Knoll, 176
F.3d at 363). “‘Although typically none of the factors is outcome dispositive,... a case is
properly dismissed by the district court where there is a clear record of delay or contumacious
conduct.”’ Schafer, 529 F.3d at 737 (quoting Knoll, 176 F.3d at 363).
Here, Plaintiffs (1) failed to effect service of process of any of the Defendants during the
time permitted by Federal Rule of Civil Procedure 4(m); (2) failed to provide the Court with an
updated mailing address; and (3) failed to comply with the Court’s show cause order. Moreover,
the Court explicitly cautioned Plaintiffs in the Show Cause Order that failure to comply could
result in dismissal of this action. See Stough v. Mayville Cmty. Schs., 138 F.3d 612, 615 (6th Cir.
1998) (noting that “[p]rior notice, or the lack thereof, is ... a key consideration” in whether
dismissal under rule 41(b) is appropriate). Plaintiffs’ failure to timely comply with the clear
orders of the Court, which established reasonable deadlines for compliance, constitutes bad faith
or contumacious conduct. See Steward v. Cty. ofJackson, Tenn., 8 F. App’x 294, 296 (6th Cir.
2001) (concluding that a plaintiffs failure to comply with a court’s order “constitute^] bad faith
or contumacious conduct and justifie[d] dismissal”). Because Plaintiffs have missed these
2

Case: 2:19-cv-03611-SDM-CMV Doc #: 10 Filed: 01/03/20 Page: 3 of 4 PAGEID #: 44

deadlines and disregarded the Court’s order, the undersigned concludes that no alternative
sanction would protect the integrity of the pretrial process. The undersigned nevertheless finds
that dismissal with prejudice is too harsh a sanction under these circumstances.
It is therefore RECOMMENDED that this action be DISMISSED WITHOUT
PREJUDICE pursuant to Rule 4(m) for failure to timely effect service of process and pursuant
to Rule 41(b) for failure to prosecute. It is further RECOMMENDED that Plaintiffs be ordered
to list 2:19-cv-3611 as a related case if they re-file this action.
PROCEDURE ON OBJECTIONS
If any party objects to this Report and Recommendation, that party may, within fourteen
(14) days of the date of this Report, file and serve on all parties written objections to those
specific proposed findings or recommendations to which objection is made, together with
supporting authority for the objection(s). A Judge of this Court shall make a de novo
determination of those portions of the Report or specified proposed findings or recommendations
to which objection is made. Upon proper objections, a Judge of this Court may accept, reject, or
modify, in whole or in part, the findings or recommendations made herein, may receive further
evidence or may recommit this matter to the Magistrate Judge with instructions. 28 U.S.C. §
636(b)(1).
The parties are specifically advised that failure to object to the Report and
Recommendation will result in a waiver of the right to have the District Judge review the Report
and Recommendation de novo, and also operates as a waiver of the right to appeal the decision of
the District Court adopting the Report and Recommendation. See Thomas v. Am, 474 U.S. 140
(1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

3

*

*

;

'

I

*

Case: 2:19-cv-03611-SDM-CMV Doc #: 10 Filed: 01/03/20 Page: 4 of 4 PAGEID #: 45

Is! Chelsev M. Vascura
CHELSEY M. VASCURA
UNITED STATES MAGISTRATE JUDGE

4

Additional material
from this filing is
available in the
Clerk's Office.

